Interest Rates and Interest Charges
Without Rewards
Annual Percentage
Rate (APR) for
MasterCard

7.9%

With Rewards

9.9%
MasterCard

Purchases,
12.9%
Balance Transfers, 10.9%
MasterCard
MasterCard
and Cash Advances
13.9%
MasterCard
Platinum Premier

Platinum Premier

Platinum

Platinum

Platinum Secured

This APR is not tied to an index
and will not vary with the market.

Penalty APR and When It Applies None
Paying Interest
Your due date is at least
25 days after the close of
each billing cycle. We will
not charge you interest on
purchases if you pay your entire
balance by the due date each
month. We will begin charging
interest on cash advances
and balance transfers on the
transaction date.
Minimum Interest Charge
None
For Credit Card Tips from the
To learn more about factors
Consumer Financial Protection to consider when applying
for or using a credit card, visit
Bureau.
the website of the Consumer
Financial Protection Bureau at
www.consumerfinance.gov/
learnmore.
Fees
Annual Fee
None
Transaction Fees
• Balance Transfer
None
• Cash Advance
None
• Foreign Transaction
1% of each transaction amount
in U.S. dollars.
Penalty Fees
Either $28 each month the
• Late Penalty
minimum payment is not paid
within ten (10) days of the
due day or the amount of your
minimum payment if below $28.
• Over-the-Credit Limit
None
• Returned Payment
Up to $33 fee for each item
returned.

How Will We Calculate Your Balance? We use a method
called “average daily balance (including new purchases).”
See your account agreement for more details.
Billing Rights: Information on your rights to dispute
transactions and how to exercise those rights is provided
in your account agreement.

Credit Card
Application

The information disclosed here is accurate as of August 1,
2020. Approval is based on your credit information obtained
from consumer credit reporting agencies InvesTex Credit
Union uses. Credit card changes require 45 days advance
notice. Credit card holders may cancel their credit card prior
to the effective date of a rate change or other significant
changes.

Aldine Branch
905 Aldine Bender
Houston, Texas 77032

Tomball Branch
24922 Tomball Parkway, Suite 100
Tomball, Texas 77375

Cypresswood Branch
230 Cypresswood Drive, Suite H
Spring, Texas 77388

NLW-Heights Branch
1614 N. Durham
Houston, Texas 77008

Atascocita Branch
5212 Atascocita Road
Humble, Texas 77346

FM 1960 Branch & Corporate Office
8404 FM 1960 Bypass Road W
Humble, Texas 77338

Hours of Operation
Lobby Hours
Monday, Tuesday, Wednesday, Friday: 8:30am to 5:00pm
Thursday: 9:00am to 5:00pm
Saturday: 8:30am to 3:00pm

Rates as
low as

7.9

%
APR*

Drive-Thru
Monday-Friday: 8:30am to 6:00pm
Saturday: 8:30am to 3:00pm
eBranch
Monday-Friday: 8:30am to 6:00pm
Saturday: 8:30am to 3:00pm

InvesTexCU.org
281.449.0109
Fax 281.219.7664
Info@InvesTexCU.org

On MasterCard
Platinum Premier

*APR is Annual Percentage Rate. Rates Differ on Other Credit Card Products Offered at InvesTex.
This credit union is federally insured by the
National Credit Union Administration.

Revised 08/20

INVESTEXCU.ORG
281.449.0109

A table that includes the APRs and
other required cost disclosures for
credit card applications is on the
reverse side of this application.

8404 FM 1960 Bypass Road W
Humble, TX 77338
(281) 449-0109 . InvesTexCU.org

CREDIT CARD APPLICATION

Check below to indicate the type of credit for which you are applying. Married Applicants may apply for a separate account.
q

q
q

Individual Credit: You must complete the Applicant section about yourself and the Other section about your spouse if: (1) you live in or the property you pledged as
collateral is located in a community property state (AK, AZ, CA, ID, LA, NM, NV, TX, WA, WI); (2) your spouse will use the account; or (3) you are relying on your spouse’s
income as a basis for repayment. If you are relying on income from alimony, child support, or separate maintenance, complete the Other section to the extent possible
about the person on whose payments you are relying.
Joint Credit: Each applicant must individually complete the appropriate section below. If the Co-Borrower is the spouse of the applicant, mark the Co-Applicant box.
Guarantor: Complete the Other section if you are a guarantor on an account/loan.

Limit Requested $

n

Other:

nCo-Applicant

nAuthorized User

NAME (Last - First - Initial)

MOTHER’S MAIDEN NAME

NAME (Last - First - Initial)

MOTHER’S MAIDEN NAME

MEMBER NUMBER

SOCIAL SECURITY NUMBER

MEMBER NUMBER

SOCIAL SECURITY NUMBER

DRIVER’S LICENSE NUMBER/STATE
BIRTH DATE

DRIVER’S LICENSE NUMBER/STATE

HOME PHONE
(
)

WORK PHONE/EXT.
(
)

BIRTH DATE

E-MAIL ADDRESS

HOME PHONE
(
)

WORK PHONE/EXT.
(
)

E-MAIL ADDRESS

PRESENT ADDRESS (STREET-CITY-STATE-ZIP)

OWN

RENT

PRESENT ADDRESS (STREET-CITY-STATE-ZIP)

OWN

PAYMENT $

Employment

PAYMENT $

Employment

NAME AND ADDRESS OF EMPLOYER

START DATE

RENT

POSITION

NAME AND ADDRESS OF EMPLOYER

START DATE

POSITION

NOTICE: ALIMONY, CHILD SUPPORT, OR SEPARATE MAINTENANCE INCOME NEED NOT BE
REVEALED IF YOU DO NOT CHOOSE TO HAVE IT CONSIDERED.

NOTICE: ALIMONY, CHILD SUPPORT, OR SEPARATE MAINTENANCE INCOME NEED NOT BE
REVEALED IF YOU DO NOT CHOOSE TO HAVE IT CONSIDERED.

GROSS EMPLOYMENT INCOME

GROSS EMPLOYMENT INCOME

$________________PER_____________

OTHER INCOME
$________________PER_____________

$________________PER_____________

SOURCE

OTHER INCOME
$________________PER_____________
SOURCE

PERSONAL REFERENCE RELATIONSHIP:

HOME PHONE:

NAME AND ADDRESS OF NEAREST RELATIVE NOT LIVING WITH YOU:

STATE LAW NOTICES OHIO RESIDENTS ONLY: THE OHIO LAWS AGAINST DISCRIMINATION REQUIRE THAT ALL CREDITORS MAKE CREDIT EQUALLY AVAILABLE TO ALL
CREDITWORTHY CUSTOMERS, AND THAT CREDIT REPORTING AGENCIES MAINTAIN SEPARATE CREDIT HISTORIES ON EACH INDIVIDUAL UPON REQUEST. THE OHIO CIVIL
RIGHTS COMMISSION ADMINISTERS COMPLIANCE WITH THIS LAW.
WISCONSIN RESIDENTS ONLY: (1) NO PROVISION OF ANY MARITAL PROPERTY AGREEMENT UNILATERAL STATEMENT UNDER SECTION 766.59, OR COURT DECREE
UNDER SECTION 766.70 WILL ADVERSELY AFFECT THE RIGHTS OF THE CREDIT UNION UNLESS THE CREDIT UNION IS FURNISHED A COPY OF THE AGREEMENT, STATEMENT
OR DECREE, OR HAS ACTUAL KNOWLEDGE OF ITS TERMS, BEFORE THE CREDIT IS GRANTED OR THE ACCOUNT IS OPENED. (2) PLEASE SIGN IF YOU ARE NOT APPLYING
FOR THIS ACCOUNT OR LOAN WITH YOUR SPOUSE. THE CREDIT BEING APPLIED FOR, IF GRANTED, WILL BE INCURRED IN THE INTEREST OF THE MARRIAGE OR FAMILY OF
THE UNDERSIGNED.

X
SIGNATURE FOR WISCONSIN RESIDENTS ONLY

DATE
SIGNATURES

YOU PROMISE THAT EVERYTHING YOU HAVE STATED IN THIS APPLICATION IS CORRECT TO THE BEST OF YOUR KNOWLEDGE. IF THERE ARE ANY IMPORTANT CHANGES
YOU WILL NOTIFY US IN WRITING IMMEDIATELY. YOU AUTHORIZE THE CREDIT UNION TO OBTAIN CREDIT REPORTS IN CONNECTION WITH THIS APPLICATION FOR CREDIT
AND FOR ANY UPDATE, INCREASE, RENEWAL, EXTENSION, OR COLLECTION OF THE CREDIT RECEIVED. YOU UNDERSTAND THAT THE CREDIT UNION WILL RELY ON THE
INFORMATION IN THIS APPLICATION AND YOUR CREDIT REPORT TO MAKE ITS DECISION. IF YOU REQUEST, THE CREDIT UNION WILL TELL YOU THE NAME AND ADDRESS
OF ANY CREDIT BUREAU FROM WHICH IT RECEIVED A CREDIT REPORT ON YOU. IT IS A FEDERAL CRIME TO WILLFULLY AND DELIBERATELY PROVIDE INCOMPLETE OR
INCORRECT INFORMATION ON LOAN APPLICATIONS MADE TO FEDERAL CREDIT UNIONS OR STATE CHARTERED CREDIT UNIONS INSURED BY NCUA. YOU UNDERSTAND
THAT THE USE OF YOUR CARD WILL CONSTITUTE ACKNOWLEDGEMENT OF RECEIPT AND AGREEMENT TO THE TERMS OF THE CREDIT CARD AGREEMENT. A CONDITION

OF YOUR ACCOUNT IS YOUR GRANTING US A SECURITY INTEREST IN YOUR SHARE ACCOUNTS. BY SIGNING BELOW YOU GRANT US A SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT SHARE AND/OR DEPOSIT ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE YOUR
CREDIT CARD ACCOUNT. WHEN YOU ARE IN DEFAULT WE MAY APPLY THE BALANCE IN THESE ACCOUNTS TO ANY AMOUNTS DUE UNDER THE
CREDIT CARD AGREEMENT. SHARES AND DEPOSITS IN AN INDIVIDUAL RETIREMENT ACCOUNT AND ANY OTHER ACCOUNT THAT WOULD LOSE
SPECIAL TAX TREATMENT UNDER THE STATE OR FEDERAL LAW IF GIVEN AS SECURITY ARE NOT SUBJECT TO THIS SECURITY INTEREST.

X

X

(SEAL)

APPLICANT’S SIGNATURE
FOR CREDIT
UNION USE
ONLY

DATE

(SEAL)

OTHER SIGNATURE

q PLATINUM PREMIER WITH REWARDS q PLATINUM PREMIER WITHOUT REWARDS
q PLATINUM WITHOUT REWARDS q PLATINUM SECURED
q APPROVED
q DECLINED

DATE
q PLATINUM WITH REWARDS

NO. OF CARDS_______
CREDIT LIMIT $______________ CREDIT CARD NUMBER______________________________
CREDIT COMMITTEE OR LOAN OFFICER SIGNATURE_________________________________________________________

DETACH AND RETURN THIS APPLICATION TO YOUR CREDIT UNION

8404 FM 1960 Bypass Road W
Humble, TX 77338
Phone: (281) 449-0109
Fax: (281) 219-7664
InvesTexCU.org

MASTERCARD CREDIT CARD AGREEMENT
In this Agreement the words “you” and “your” mean each and all of those who agree
to be bound by this Agreement; “Card” means the MasterCard credit card and any
duplicates, renewals, or substitutions the Credit Union issues to you; “Account” means
your MasterCard credit card line of credit account with the Credit Union, and “Credit
Union” means the Credit Union whose name appears on this Agreement or anyone to
whom the Credit Union transfers this Agreement.
1. Using Your Account - If you are approved for an Account, the Credit Union will
establish a line of credit for you and notify you of your credit limit. You agree that your
credit limit is the maximum amount (purchases, cash advances, finance charges, plus
“other charges”) that you will have outstanding on your Account at any time. If you
are over your credit limit, you must pay the amount you are over before payments will
begin to restore your credit limit. You may request an increase in your credit limit only
by a method acceptable to the Credit Union. The Credit Union has the right to reduce
your credit limit, refuse to make advance and/or terminate your Account at any time for
any reason not prohibited by law.
2. Using Your Card - You may use your card to make purchases from merchants and
others who accept MasterCard Cards. However, you may not use your Card to initiate
any type of gambling transaction. If you wish to pay for goods or services over the
internet, you may be required to provide card member security information before you
will be permitted to complete the transaction. You may also obtain cash advances from
the Credit Union and from other financial institutions that accept MasterCard Cards,
and from some automated teller machines (ATMs). (Not all ATMs accept MasterCard
Cards.) To obtain cash advances from an ATM, you must use the Personal Identification
Number (PIN) that is issued to you for use with your Card. You agree that you will not
use your Card for any transaction that is illegal under applicable federal, state, or local
law.
3. Responsibility - You agree to pay all charges (purchases and cash advances) to
your Account that are made by you or anyone whom you authorize to use your Account.
You also agree to pay all finance charges and other charges added to your Account
under the terms of this Agreement or another agreement you made with the Credit
Union. If this is a joint Account, Section 19 below also applies to your Account.
4. Military Lending Act - Federal law provides important protections to members
of the Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and his or
her dependent may not exceed an annual percentage rate of 36 percent. This rate
must include, as applicable to the credit transaction or account: The costs associated
with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account.)
Please call us at 281-449-0109 to receive oral disclosures of the Military Lending Act
disclosure above and a description of the payment obligation.
5. Finance Charges - If your Card features an Introductory Rate, you will pay a FINANCE
CHARGE for the transaction categories and time period, and at the introductory periodic
rate and ANNUAL PERCENTAGE RATE set forth on the Account Opening Disclosures
provided after your application is approved. After the introductory period, and during the
introductory period for any transaction categories not subject to the Introductory Rate:
You will pay a FINANCE CHARGE for all advances made against your MASTERCARD
PLATINUM SECURED credit card at the periodic rate of .0380822% per day, which
has a corresponding ANNUAL PERCENTAGE RATE of 13.9%. You will pay a FINANCE
CHARGE for all advances made against your MASTERCARD PLATINUM credit card
(With Rewards) at the periodic rate of .0353425% per day, which has a corresponding
ANNUAL PERCENTAGE RATE of 12.9%. You will pay a FINANCE CHARGE for all
advances made against your MASTERCARD PLATINUM credit card (Without Rewards)
at the periodic rate of .0298630% per day, which has a corresponding ANNUAL
PERCENTAGE RATE of 10.9%. You will pay a FINANCE CHARGE for all advances made
against your MASTERCARD PLATINUM PREMIER credit card (With Rewards) at the
periodic rate of .0271233% per day, which has a corresponding ANNUAL PERCENTAGE
RATE of 9.9%. You will pay a FINANCE CHARGE for all advances made against your
MASTERCARD PLATINUM PREMIER credit card (Without Rewards) at the periodic rate
of .0216438% per day, which has a corresponding ANNUAL PERCENTAGE RATE of
7.9%. Cash advances incur a FINANCE CHARGE from the date they are posted to the
account. If you have paid your account in full by the due date shown on your previous
statement, or there is no previous balance, you have not less than 25 days to repay
your account balance before a FINANCE CHARGE on new purchases will be imposed.
Otherwise there is no grace period and new purchases will incur a FINANCE CHARGE
from the date they are posted to the account. The FINANCE CHARGE is figured by

applying the periodic rate to the “balance subject to FINANCE CHARGE” which is the
“average daily balance” of your account, including certain current transactions. The
“average daily balance” is arrived by taking the beginning balance of your account
each day and adding any new cash advances, and, unless you pay your account in full by
the due date shown on your previous monthly statement or there is no previous balance,
adding in new purchases, and subtracting any payment or credits and unpaid FINANCE
CHARGES. The daily balances for the billing cycle are then added together and divided
by the number of days in the billing cycle. The result is the “average daily balance”.
The FINANCE CHARGE is determined by multiplying the “average daily balance” by
the number of days in the billing cycle and applying the periodic rate to the product.
You may pay any amounts outstanding at any time without penalty for early payment.
6. Other Charges - The following other charges (fees) will be added to your Account,
as applicable:
a. Over-the-Credit-Limit Fee: None
b. Late Payment Fee: Either $28 each month the minimum payment is not paid
within ten (10) days of the due day or the amount of your minimum payment if below
$28.
c. Return Check Fee: If a check or share draft used to make a payment on your
account is returned unpaid, you may be charged a fee up to $33 for each item returned.
In no event will the Return Check Fee exceed the required minimum payment for the
applicable statement period.
d. Collection Costs: You agree to pay all costs of collecting the amount you owe
under this Agreement, including court costs and reasonable attorney’s fees.
7. Payments - Each month you must pay at least the minimum payment shown on
your statement by the date specified on the statement or no later than twenty-five (25)
days from the statement closing date, whichever is later. If your statement says the
payment is “Now Due,” your payment is due no later than twenty-five (25) days from
the statement closing date. You may pay more frequently, pay more than the minimum
payment or pay the Total New Balance in full. If you make extra or larger payments,
you are still required to make at least the minimum payment each month your Account
has a balance (other than a credit balance). The minimum payment is 3% of your Total
New Balance, or $15.00, whichever is greater, plus the amount of any prior minimum
payments that you have not made, and any amount you are over your credit limit. The
Credit Union also has the right to demand immediate payment of any amount by which
you are over your credit limit.
8. Payment Allocation - Subject to applicable law, your payments may be applied to
what you owe the Credit Union in any manner the Credit Union chooses.
9. Security Interest - If you give the Credit Union a specific pledge of shares by
signing a separate pledge of shares, your pledged shares will secure your Account.
You may not withdraw amounts that have been specifically pledged to secure your
Account until the credit union agrees to release all or part of the pledged amount. In
addition, your Account is secured by all other shares you have in any individual or joint
account with the Credit Union, except for shares in an Individual Retirement Account
or in any other account that would lose special tax treatment under state or federal
law if given as security. You authorize the Credit Union to apply the balance in your
individual or joint share accounts to pay any amounts due on your Account if you should
default. Collateral securing other loans you have with the Credit Union may also secure
this loan, except that a dwelling will never be considered as security for this Account,
notwithstanding anything to the contrary in any other agreement.
10. Default - You will be in default if you fail to make any minimum payment or
other required payment by the date that it is due. You will be in default if you break
any promise you make under this Agreement. You will be in default if you die, file for
bankruptcy or become insolvent, that is, unable to pay your obligations when they
become due. You will be in default if you make any false or misleading statements in any
credit application or credit update. You will also be in default if something happens that
the Credit Union believes may substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand immediate payment
of your full Account balance without giving you notice. If immediate payment is
demanded, you agree to continue paying finance charges, at the periodic rate charged
before default, until what you owe has been paid, and any shares that were given as
security for your Account may be applied towards what you owe.
11. Liability for Unauthorized Use-Lost/Stolen Card Notification - You agree
to notify us immediately, orally or in writing, at 8404 FM 1960 Bypass Road W, Humble,
TX 77338, or 800-449-7728, of the loss, theft, or unauthorized use of your credit card.
You may be liable for the unauthorized use of your credit card. You will not be liable for

unauthorized use that occurs after you notify us of the loss. If you exercise reasonable
care in safeguarding your card from risk of loss or theft and, upon discovering the loss or
theft promptly report the loss or theft to us, you will not be liable for any unauthorized
transactions. In any case, your liability will not exceed $50.00.
12. Changing or Terminating Your Account - The Credit Union may change
the terms of the Agreement from time to time. Notice of any change will be given in
accordance with applicable law. If permitted by law and specified in the notice to you,
the change will apply to your existing Account balance as well as to future transactions.
Either you or the Credit Union may terminate this Agreement at any time, but
termination by you or the Credit Union will not affect your obligation to pay the Account
balance plus any finance and other charges your owe under this agreement. You are
also responsible for all transactions made to your Account after termination, unless the
transactions were unauthorized.
The Card or Cards you receive remain the property of the Credit Union and you must
recover or surrender to the Credit Union all Cards upon request or upon termination
of this Agreement whether by you or the Credit Union. The Credit Union has the right
to require you to pay your full Account balance at any time after your Account is
terminated, whether it is terminated by you or the Credit Union. If this is a joint Account,
Section 19 of this Agreement also applies to termination of the Account.
13. Credit Information - You authorize the Credit Union to investigate your credit
standing when opening or reviewing your Account. You authorize the Credit Union
to disclose information regarding your Account to credit bureaus and creditors who
inquire about your credit standing. If your account is eligible for emergency cash and/or
emergency card replacement services, and you request such services, you agree that we
may provide you with the requested service(s).
14. Returns and Adjustments - Merchants and others who honor your Card may
give credit for returns or adjustments, and they will do so by sending the Credit Union
a credit slip which will be posted to your Account. If your credits and payments exceed
what you owe the Credit Union, the amount will be applied against future purchases
and cash advances. If the credit balance amount is $1 or more, it will be refunded upon
your written request or automatically after six (6) months.
15. Automatic Billing Updater (ABU) - InvesTex Credit Union subscribes to the
MasterCard Automatic Biller Updater program and provides updated card information
to the service. Merchants who may participate in the Automatic Billing Updater program
will receive updated cardholder information for recurring card transactions. Information
such as your expiration date, card number (if the original card was lost/stolen/transferred)
and closed card notifications are updated with this service and communicated directly
to participating merchants with whom you have recurring payments. To ensure your
payments continue uninterrupted, we recommend you continue to notify each merchant
of any card changes since not all merchants subscribe to this service.
16. Additional Benefits/Card Enhancements - The Credit Union may from time to
time offer additional services to your Account, such as travel accident insurance, at no
additional cost to you. You understand that the Credit Union is not obligated to offer
such services and may withdraw or change them at any time.
17. Foreign Transactions - Purchases, cash advances and cash withdrawals made in
foreign currencies will be debited from your account in U.S. dollars. The exchange rate
used to convert foreign currency transactions to U.S. dollars is either a governmentmandated exchange rate or a wholesale exchange rate and is selected by MasterCard.
The rate MasterCard uses for a particular transaction is the rate MasterCard selects for
the applicable currency on the day the transaction is processed. This rate may differ
from the rate applicable on the date the transaction occurred or was posted to your
account.
A fee of up to 1 percent will be charged on all transactions completed outside of the
United States where the cardholder’s country code differs from the merchant’s country
code. In addition, a fee up to 1 percent will be charged on all transactions completed
in a foreign currency. All fees are calculated based on the transaction amount after it is
converted to U.S. dollars. These fees are charged except where included.
18. Merchant Disputes - The Credit Union is not responsible for the refusal of
any merchant or financial institution to honor your Card. The Credit Union is subject
to claims and defenses (other than tort claims) arising out of goods or services you
purchase with the Card if you have made a good faith attempt but have been unable
to obtain satisfaction from the merchant or service provider, and (a) your purchase was
made in response to an advertisement the Credit Union sent or participated in sending
to you; or (b) your purchase cost more than $50 and was made in your state or within
one hundred (100) miles of your home.
19. Joint Accounts - If this is a joint Account, each person on the Account must sign
the Agreement (by signing on the application). Each of you will be individually and
jointly responsible for paying all amounts owed under this Agreement. This means that
the Credit Union can require any one of you individually to repay the entire amount
owed under this Agreement. Each of you authorizes the other(s) to make purchases
or cash advances individually. Any one of you may terminate the Account and the
termination will be effective as to all of you.
20. Effect of Agreement - This Agreement is the contract which applies to all
transactions on your Account even though the sales, cash advances, credit or other slips
you sign or receive may contain different terms.

21. No Waiver - The Credit Union can delay enforcing any of its rights any number of
times without losing them.
22. Statement And Notices - Statements and notices will be mailed to you at the
most recent address you have given the Credit Union. Notice sent to any one of you will
be considered notice to all.
23. Final Expression - This Agreement is the final expression of the terms and
conditions of this MasterCard line of credit between you and the Credit Union. This
written Agreement may not be contradicted by evidence of any alleged oral agreement.
24. Copy Received - You acknowledge that you have received a copy of the
Agreement.
25. Signatures - By signing in the Signature area of the application form that was
attached to this Agreement when you received it, you agree to the terms of this
Agreement. You should detach this Agreement from the application and retain it for
your records.
26. Credit Card Changes - Any Credit Card changes require 45 days advance notice.
Credit Card holders may cancel their credit card prior to the effective date of the
changes.
27. Age - Applicants must be 21 years of age or a parent/legal guardian will be
required to sign as a co-applicant.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities
under the Fair Credit Billing Act.
Notify Us In Case of Errors Or Questions About Your Bill If you think your bill is wrong or if you need more information about a transaction on
your bill, write us on a separate sheet at the address listed on your bill. Write to us as
soon as possible. We must hear from you no later than sixty (60) days after we sent you
the first bill on which the error or problem appeared. You can telephone us, but doing
so will not preserve your rights.
In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe t here is an error. If you
need more information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or
share draft account, you can stop the payment on any amount you think is wrong. To
stop the payment your letter must reach us three (3) business days before the automatic
payment is scheduled to occur.
Your Rights And Our Responsibilities After We Receive Your Written Notice We must acknowledge your letter within thirty (30) days, unless we have corrected the
error by then. Within ninety (90) days, we must either correct the error or explain why
we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question, or report
you as delinquent. We can continue to bill you for the amount you question, including
finance charges, and we can apply an unpaid amount against your credit limit. You do
not have to pay any questioned amount while we are investigating, but you are still
obligated to pay the parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay any finance
charges related to any questioned amount. If we didn’t make a mistake, you may have
to pay finance charges, and you will have to make up any missed payments on the
questioned amount. In either case, we will send you a statement of the amount you
owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent.
However, if our explanation does not satisfy you and you write to us within ten (10)
days telling us that you still refuse to pay, we must tell anyone we report to that you
have a question about your bill. And, we must tell you the name of anyone we reported
you to. We must tell anyone we report you to that the matter has been settled between
us when it finally is.
If we don’t follow these rules, we can’t collect the first $50 of the questioned amount,
even if your bill was correct.
Special Right For Credit Card Purchases If you have a problem with the quality of property or services that you purchased
with a credit card, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the property
or services. There are two (2) limitations on this right:
• You must have made the purchase in your home state or within one hundred
(100) miles of your current mailing address; and
• The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if we mailed you
the advertisement for the property or services.

AMENDMENT TO CREDIT CARD APPLICATION AND
MASTERCARD CREDIT CARD AGREEMENT
The following terms supersede the same terms appearing in the Credit Card Application and
MasterCard Credit Card Agreement. All other terms remain in effect.
Interest Rates and Interest Charges
Platinum

Platinum Premier

Platinum Secured

0% intro APR for 12 monthly billing
Annual Percentage Rate
(APR) for Purchases,
Balance Transfers, and Cash
Advances

cycles on all balance transfers and cash
advances processed for the first 90 days
after a new credit card account is opened.
Without Rewards
Without Rewards

10.9%

7.9%

With Rewards

With Rewards

12.9%

9.9%

13.9%

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing
cycle. We will not charge you interest on purchases if you pay
your entire balance by the due date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
• Foreign Transaction
• Cash Advance
Penalty Fees
• Late Payment
• Returned Payment

None
Up to 2% of each transaction in U.S. dollars
None
Up to $28
Up to $33

How We Will Calculate Your Balance: We use a method called “average daily balance
(including new purchases).” See your Card Agreement for more details.
The information about the costs of the cards described in this application is accurate as of
8/2020. This information may have changed after that date. To find out what may have changed,
write to us at InvesTex Credit Union, 8404 FM 1960 Bypass West Road, Humble, TX 77338 or
call (281) 449-0109.

Rev. 08/25/20

